'VSJt
No. 19-

3fn tfje
Supreme Court of tf)e ®nttet States
James Kerr Schlosser
Petitioner,
V.

UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Third Circuit
PETITION FOR WRIT OF CERTIORARI

James Kerr Schlosser
In Propria Persona
1828 Krystle Drive -

Lancaster, PA neoi;
(717) 371-8563

FILED
OCT 1 8 2019
OFFICE OF THE CLERK
SUPREME COURT. U.S.

October 18,2019
SUPREME COURT PRESS

♦

(888) 958-5705

♦

Boston, Massachusetts

1

QUESTIONS PRESENTED
1. Whether the lower courts erred regarding the
denied evidence, violating the defendant’s constitutional
right to a complete defense, if the evidence denied
would have better shown the jury the defendants
“willfulness” “reasonableness” and “state of mind” at
the time of the alleged crime, proving that the
defendant had no mens rea?
2. When the Appellate Court instruction is vague
regarding the District Court improperly ordering
restitution as a penalty due immediately absence of
statutory authority, and it damaged the appellant,
what can be done to correct it?
3. Should the DOJ lawfully absolve the IRS,
Prosecutors? or Judges? who seemingly have no
accountability, and flagrantly twist, distort and mock
a defendant’s religious beliefs at trial, then weaponized
those miss-stated beliefs in the media, leaving the
slandered appellant indefensible?

11

LIST OF PROCEEDINGS BELOW
United States Court of Appeals for the Third Circuit
Case No. 17-2872
James Kerr Schlosser, Plaintiff-Appellant, v.
United States ofAmerica, Defendant-Appellee.
Decision Date: January 30, 2019
Rehearing Denial Date: May 21, 2019

United States District Court for the Eastern District
of Pennsylvania
Case No. 5:16-cr-00178-001
United States ofAmerica, Plaintiff v.
James Kerr Schlosser, Defendant.
Decision Date: March 6, 2017

1

Ill

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED......................

1

LIST OF PROCEEDINGS BELOW..........

11

TABLE OF AUTHORITIES......................

vi

PETITION FOR WRIT OF CERTIORARI

1

OPINIONS BELOW...................................

1

JURISDICTION..........................................

1

CONSTITUTIONAL PROVISIONS........ .

2

STATEMENT OF THE CASE...............
STATEMENT OF THE FACTS.............

3

5

A. Factual Background and Prior to the
United States District Court for the
Eastern District of Pennsylvania................

5

1. Procedural History and Verdict in
United States District Court for the
Eastern District of Pennsylvania...........

7

2. Evidentiary Issues and Non-Admission
of Key Exhibits.........................................

8

B. Factual Background and Proceedings in the
United States Court of Appeals for the
Third Circuit.................................................. 13
C. Proceedings in the United States Court of
Appeals for the Third Circuit........................ 15
REASONS FOR GRANTING THE PETITION...... 17
CONCLUSION

37

IV

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS
Judgment of the Third Circuit Court of Appeals
(January 30, 2019)....................................... .......... la
Opinion of the Third Circuit Court of Appeals
(January 30, 2019)................................................. 3a
Order of the Third Circuit Granting Appellant
Motion to file Supplemental Appendix
(May 10, 2019)........................................................ 9a
Memorandum Opinion of the District Court of
Pennsylvania (May 12, 2017)................... ......... 10a
Order of the District Court of Pennsylvania
(May 15, 2017)....................................................... 19a
Oral Decision of the District Court
(November 7, 2017).............................................. 21a
Order of the Third Circuit Denying Surpetition
for Rehearing (May 21, 2019)...................... . 35a
Affidavit in Support of
Appellant’s Missing Evidence.............................. 37a
Schlosser’s Exhibit List.............................................. 39a
Criminal Judgment
(August 14, 2017)................................................. 41a
Indictment
(April 6, 2016)........................................................ 49a
Notice of Intent to Offset

(May 2, 2018)................................................ 63a

V

TABLE OF CONTENTS - Continued
Page
APPENDIX TABLE OF CONTENTS (Cont.)
Summary of Witness Testimony and Records....... 68a
Trial Exhibit 22—IRS/CI Memorandum of
Interview (June 15, 2009)................................... 71a
SSA Certified FOIA Response
(January 28, 2013)................................................ 73a
Trial Exhibit 10—Includes 41a Response to Bank
Re: SSN & Religious Beliefs (April 20, 2006). 74a
Trial Exhibit 8 Lawyers SSN Objection to PennDOT
(April 8, 2004)..................... .................................. 80a
Attorney Wenger Letter to PennDOT for Appellant
(April 8, 2004)........................................................ 81a
Response from SSA Commissioner
Re: No SSN on DL (October 20, 2004).............. 84a

VI

TABLE OF AUTHORITIES
Page
CASES
Berger v. United States,
295 U.S. 78 (1935)................................

21

Cheek v. United States,
111 S.Ct. 604 (1991)............................

20

DePetris v. Kuykendall,
239 F.3d 1057 (9th Cir. 2001).............

19

Gardina v. Board ofRegistrars,
160 Ala. 155, 48 So. 788 (1909)..........

11

Marinello v. United States,
138 S.Ct. 1101(2018).............................

13, 14

Nuttall v. Reading Company,
235 F.2d 546 (3rd Cir. 1956)................

21

Pettijohn v. Hall,
599 F.2d 476 (1st Cir. 1979)................

19

Rosario v. Kuhlman,
839 F.2d 918 (2nd Cir. 1988).............

19

Sims v. Ahrens,
167 Ark. 557, 271 S.W. 720 (1925)....

10

Smith v. Goguen, 415 U.S. 566,
94 S.Ct. 1242, 39 L.Ed.2d 605 (1974)

27

United States v. Branham,
97 F.3d 835 (6th Cir. 1996).................

21

United States v. Gaskell,
985 F.2d 1056 (llth Cir. 1993)..........

18

United States v. Harris,

942, F.2d 1125 (7th Cir. 1991).........

20

Vll

TABLE OF AUTHORITIES—Continued
Page
United States v. Juan,
776 F.2d 256 (llth Cir. 1985)...

24

United States v. Lankford,
955 F.2d 1545 (llth Cir. 1992)

18

United States v. Poschwatta
829 F.2d 1477 (9th Cir. 1987).

20

United States v. Powell,
955 F.2d 1206 (9th Cir. 1991)..

20

United States v. Silkman,
156 F.3d 833 (8th Cir. 1998)....

19

United States v. Versaint,
849 F.2d 827 (3d Cir. 1988)........

18

United States v. Willie,
941 F.2d 1384 (10th Cir. 1991)

20

Wilcox v. CIR,

848 F.2d 1007 (9th Cir. 1988)..

11

CONSTITUTIONAL PROVISIONS
Arkansas Const. Art. 16, § 5......

10

Pennsylvania Const. Art. I, § 9

..........3, 12

U.S. Const, amend. IV..............

..........2, 34

U.S. Const, amend. V................

2, 4, 12, 29

U.S. Const, amend. VI..............

passim

Vlll

TABLE OF AUTHORITIES—Continued
Page
STATUTES
26 U.S.C. § 6721(a)(2)(B).............................

9

26 U.S.C. § 6721(c)(1)(B).............................

9

26 U.S.C. § 6724(a).......................................

9

26 U.S.C. § 7203............................................. ........ passim
26 U.S.C. § 7212(a)...................................... 8, 13, 17, 27
26 U.S.C. § 7302.............................................

20

28 U.S.C. § 1254(1)........................................

1

Debt Collection Act of 1982.........................

26

Debt Collection Improvement Act of 1996

26

JUDICIAL RULES
Fed. R. Evid. 801(c)(2)
Treasury Offset Program Rules

16, 21
26

REGULATIONS AND CODES
20 C.F.R. § 416.1103..................

11

26 C.F.R. § 6109(a)(3)...............

9

OTHER AUTHORITIES
A Declaration of the Rights of the Inhabitants
of the Commonwealth or State of
Pennsylvania, UMKC LAW REVIEW
[Vol. 87: l] https://avalon.law.yale.edu/
18th_century/pa08.asp..................................

36

IX

TABLE OF AUTHORITIES—Continued
Page
Associated Press,
“Man convicted ofnot filing taxes over
‘mark of the beast’”
Morning Call (Mar. 8, 2017)......................

35

Black’s Law Dictionary 566 (6th ed. 1990).......

11

Shon Hopwood,
Improving Federal Sentencing,
University of Missouri-Kansas City
law Review, Vol. 87, No. 79 (March 15,
2018). Available at SSRN: https://ssrn.
com/abstract=3353521 .................................

22

United States Department of Justice, Press
Release; Jury Convicts Lancaster Man of
Tax Fraud (Mar. 7, 2017) https://www.
justice.gov/usao-edpa/pr/jury-convictslancaster-county-man-tax-fraud...................

35

1

PETITION FOR WRIT OF CERTIORARI
James Kerr Schlosser, petitions for a writ of
certiorari to review the judgment of the United States
Court of Appeals for the Third Circuit, to reverse and
remand in part that decision; that there was evidence
withheld that related to Counts Two and Three, which
is contrary to the Panels ruling.

OPINIONS BELOW
The Opinion of the Third Circuit Court of Appeals
was filed on January 30th 2019. (App.3a). The Order
granting a Motion to Append a Supplemental Index was
granted by the Court of Appeals for the Third Circuit
May 9th, 2019. (App.9a). The Order denying rehearing
en banc and the dissent from denial of en banc review
was filed May 29th, 2019. (App.35a)

JURISDICTION
The judgment of the Third Circuit District Court
was entered on March 6, 2017. A timely petition for
rehearing en banc was denied by The Third Circuit
Court of Appeals entered judgment on May 29, 2019.
Justice Samuel A. Alito granted appellant’s application
for an extension of time to file a petition for a writ of
certiorari through October 18, 2019. This Court has
jurisdiction pursuant to 28 U.S.C. § 1254(l).

2

CONSTITUTIONAL PROVISIONS
•

Fourth Amendment
The right of the people to be secure in their per­
sons, houses, papers, and effects, against unreason­
able searches and seizures, shall not be violated,
and no warrants shall issue, but upon probable
cause, supported by oath or affirmation, and par­
ticularly describing the place to be searched, and
the persons or things to be seized.

• Fifth Amendment
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a grand jury, except in
cases arising in the land or naval forces, or in
the militia, when in actual service in time of war
or public danger; nor shall any person be subject
for the same offense to be twice put in jeopardy of
life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be
deprived of life, liberty, or property, without due
process of law; nor shall private property be taken
for public use, without just compensation.
•

Sixth Amendment
In all criminal prosecutions, the accused shall
enjoy the right to a speedy and public trial, by an
impartial jury of the state and district wherein the
crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the

3

accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
assistance of counsel for his defense.
• Pennsylvania Constitution Article I, § 9—
Rights of accused in criminal prosecutions
In all criminal prosecutions the accused hath a
right to be heard by himself and his counsel, to
demand the nature and cause of the accusation
against him, to be confronted with the witnesses
against him, to have compulsory process for
obtaining witnesses in his favor, and, in prosecu­
tions by indictment or information, a speedy
public trial by an impartial jury of the vicinage;
he cannot be compelled to give evidence against
himself, nor can he be deprived of his life, liberty
or property, unless by the judgment of his peers
or the law of the land.

STATEMENT OF THE CASE
This case presents an important and recurring
question of criminal tax liability that has divided the
courts of appeals. Section 7203 of the Internal Revenue
Code makes it a misdemeanor for:
“Any person required under this title to pay
any estimated tax or tax, . . . who willfully
fails to pay such estimated tax or tax, make
such return, keep such records, or supply such
information, be guilty of a misdemeanor.”
(emphasis added).

4
Proving this willfulness is at the heart of a
prosecutor’s duty, and the circuits are split on how
much evidence can be admitted to constitutionally
fulfill a Defendant’s right to prove their innocence. In
the case at hand, by denying pivotal and exculpatory
evidence from the jury, the prosecutors and Court
hamstrung the defendant’s ability to present a clear
defense. The “due process” clause of the Fifth Amend­
ment and the Sixth Amendment’s criminal trial provi­
sions have been determined to be the basis for the
constitutional right to present a complete defense.
This constitutional right protects a defendant’s right
to compulsory process to secure witnesses for trial, as
well as his right to testify in his own behalf and to
offer relevant documentary evidence supportive of
his defense, so the case was appealed.
Then, the Opinion of the Panel of the Third Circuit
Court of Appeals stated:
“Given the task before the jury, we must
decide whether the District Court acted
within its discretion in allowing Schlosser to
testify extensively as to the content of the
seminar while excluding from evidence the
actual materials Schlosser received at the
seminar. We discern no abuse of discretion.
The District Court allowed Schlosser to testify
comprehensively about the Thayer seminar.
The admission of seminar materials, there­
fore, would have been piling on.” .. . “Nor
were the excluded materials from the Thayer
seminar relevant to any of Schlosser’s other
reasons for thinking he was free from federal
taxation.”

5

Appellant wonders if points of law, facts and
evidence were overlooked by the Panel and the District
Court, since many of those excluded exhibits are
relevant not only to the 7212(a) charge in Count 1,
which has been dismissed, but also to the 7302 charges
in Counts 2 and 3.
In District Court, the defendant’s attorney argued
that denying the evidence was unconstitutional, because
the jury couldn’t understand the heart of the defendant
or why he developed that state of mind, and exhibits
were not presented for the truth of the matter.

STATEMENT OF THE FACTS
A.

Factual Background and Prior to the United
States District Court for the Eastern District of
Pennsylvania

1. In 1994 defendant attended meetings where a
lawyer Jeffrey Thayer described what defendant
thought was a lawful process whereby the Federal or
U.S. citizenship could be renounced, avoiding encroach­
ing Federal Jurisdiction, and as an added bonus, that
the income tax only applied to U.S. citizens, not state
citizens. Defendant followed that advice and in good
faith sent letters to the IRS, the U.S. Attorney
General, SSA and others agencies giving notice of his
decision, but got no answers from them to his
recollection. Appellant had filed tax returns previ­
ously, but after his revocation he did not file returns
from 1994 through 2014, believing that he had law­
fully exited the system.

6

2. After the 1994 filing, the defendant did not
hear from the IRS for about 12 years, (other than an
agency prepared a return in 1997, (only for the 1994
tax year, for about $1000.) In 1999 defendant attended
seminars by the same lawyer, and created some cor­
poration soles., as a ministry and one to work his
medical sales business through, being told that these
types of corporations were not required to file.
3. In 2006 IRS agent Dianne Ramos learned of
that outstanding 1994 assessment (App. 409, 414-415,
425-426 428). In Exhibit 22A (App.70a) clearly suggests
that Ramos unlawfully obtained evidence from a
financial institution before summons were issued or
the case was referred criminally.
4. Ramos initiated a complaint over 1994 taxes
and in response, appellant lawfully availed himself of
the appeals process afforded by the IRS for contesting
only the 1994 assessment only. (App. 414). Two weeks
before the United States Tax Court hearing No. 074812, the court granted a summary dismissal at pros­
ecutions request. The appellant never got “his day in
court”. Appellant had verbally been told by the IRS
lien office that the lien in question had legally
expired, and the hen was released on 07/03/2006 which
made the tax court decision moot; (App.67a-68a).
Appellant then sought review in appealed to Appeals
Court, which rejected his arguments and imposed a
filing penalty of $1,000 as a sanction for raising
frivolous arguments. (App 827-831; 984-985; 1103,
1110).
5. In 2009 appellant learned that a Grand Jury
investigation had opened, and after 7 years, an indict­
ment was filed against Appellant on 4/26/16 in the

7

Eastern District of Pennsylvania alleging 13 counts of
criminal behavior, 10 of which happened before defen­
dant was even aware of any IRS investigation or
pending action.
6. Appellant was then offered two versions of a
Plea Agreement, both would have forced him to lie by
agreeing he had committed a crime with mens rea,
when he did not. The plea’s also excused all the behavior
of the DOJ. IRS and would have indemnified their law
breaking, potential Bivens and/or criminal actions.
Appellant could not sign the documents with a good
conscious.
1. Procedural History and Verdict in United
States District Court for the Eastern District
of Pennsylvania
1. Defendant hired tax lawyer Larry Becraft, who
after many reminders from Defendant and the
prosecution did not get all of the evidence from the
prosecution. Becraft told defendant to read through
the discovery we did have and put together the exhibit
books necessary to tell his story.
2. At trial, Becraft did not bringing any witnesses
on defendants behalf. Appellant himself asked his
pastor as a character witness. Becraft did not interview
key witnesses the defendant requested, did not objecting
to any of over 200 exhibits prosecution entered, and
only got a few defense exhibits entered into the record.
3. The trial was replete with examples of the
prosecution and court denying necessary evidence,
and defendant received prejudicial treatment due to
his religious beliefs against forced SSN usage discussed
later. Prosecution also spent lots of time confusing

8

the court and jury into believing that the TAX COURT
cases were about all past taxes, and they were only
about an expired tax lien for about a $1000. (App.21a)
4. On March 6, 2107, appellant was convicted on
all counts, one count of attempting to interfere with
the administration of the internal revenue laws in
violation of 26 U.S.C. § 7212(a), and two counts of
willful failure to file a tax return, in violation of 26
U.S.C. § 7203.
5. Following the verdict, the defense moved for a
new trial on the ground that exclusion of the
evidence infringed appellant’s constitutional right to
present a complete defense. (App. 65-77). The district
court denied the motion. (App.19a). A Notice of
Appeal was filed timely. The defendant was immedi­
ately incarcerated at sentencing from 8/11/17 till
immediate release was granted on 2/12/2018 after
the Appeal and Motion for Bond Pending Appeal was
entered.
2. Evidentiary Issues and Non-Admission of Key

Exhibits
Lower Court
In the present case, petitioner took the stand
and made effort to testify that he did not act willfully,
but had relied in good faith upon what he was told by
others; he also testified of his reliance on various
documents containing legal and other information that
formed his beliefs as a result of reading and studying
them. Several times during trial, appellant attempted
to testify about those tendered exhibits and he also
offered them, but the court excluded much of that
testimony and most of those exhibits, which prevented

9
the jury seeing the relevant documents appellant had
relied upon.
Appellant thinks it is impossible to make deter­
minations about exhibits that a juror or court has not
seen. Here is brief summary of what some of the
denied or excluded exhibits would have shown the jury:
Exhibit 28: During cross examination of
Independent Med Reps CEO, (IMR) (App
619-626), trial Attorney Becraft got Exhibit
28 admitted. This document is relevant to
the Counts 2 and 3 as in 2012 and 2013 appel­
lant got 1099’s from IMR. It would have
shown the jury how and why the Defendant
lawfully requested to receive 1099’s from
IMR with no SSN on them. It referenced
IRS code why that it is not criminal, and
also detail some of his religious objections of
why he will not legally provide a SSN to
IMR.
After the Court admitted Exhibit 28 into evidence,
in the next breath, denied this critical evidence to the
jury with no explanation (App 623-624) “But I’m
certainly not going to let him read the letter”. This
act alone denied the jury the ability to “see” or “hear”
even the legality and sincerity of the Defendants
actions and religious beliefs, as well as actual IRC
that supported those beliefs, to show the heart of the
defendant. It referenced 26 C.F.R. § 6109(a)(3), 26
U.S.C. § 6721(a)(2)(B) and § 6721(c)(1)(B), and 26
U.S.C. § 6724(a), and the EEOC brief and determination
in Bruce Hanson’s case CA3-92-0169T, Dallas Texas
stating; the companies decision to fire Hanson for not
providing a SSN was based “solely upon the policy of

10
the company, and not based on any requirement of the
IRS or of the law.”
Reading the actual IRC and even seeing what
created the defendant’s beliefs was critical to increase
the jury’s “reasonableness and credibility” assessment
of the Defendants actions. A reasonable juror could
have seen and understood why the Defendant thought
his actions were legal, but it was denied.
App 67-68, in the Post Trial Motion by Defense
Trial Lawyer, Becraft attached exhibits and argued
on one page in this exhibit was the Arkansas case of
Sims v. Ahrens, 167 Ark. 557, 271 S.W. 720 (1925),
the headnotes of which stated as follows in this tendered
exhibit:
“Under Const, art. 16, § 5, empowering Legislature
to tax certain occupations and privileges, Legislature
may declare as privilege and tax as such for state
revenue those pursuits and occupations that are not
matters of common right, but has no power to declare
as a privilege and tax for revenue purposes occupations
that are of common right.”
This case held that a state income tax was really
a privilege tax that could not be applied to those
whose occupations were not licensed. Schlosser testi­
fied at trial that during 2012-2013 of Counts 2 and 3
in question, that he was a medical equipment sales­
man. which is an unlicensed occupation. This denied
evidence was exculpatory.
In Blacks 6th, it defines Exculpatory evidence as
evidence “which tends to justify, excuse or clear the
defendant from alleged fault or guilt.” Black’s Law

11

Dictionary 566 (6th ed. 1990). 55... . The Constitution
guarantees the defendant nothing less.”
During trial, Defendant’s lawyer Becraft, offered
some exhibits, denied in trial, attached as a post trial
motion, supportive of the “citizenship” argument and
§ 7203 charges, being made by these presenters
which contained pages from the below cited cases:
Gardina v. Board ofRegistrars, 160 Ala. 155,
48 So. 788, 791 (1909): “There are, then, under
our republican form of government, two
classes of citizens, one of the United States
and one of the state. One class of citizenship
may exist in a person without the other.”
The presenters also discussed their conclusion
regarding what income is not, based on certain federal
regulations appearing in Title 20, Code of Federal
Regulations. Trial Ex 19 (App 69): Title 20 C.F.R.
§ 416.1103 What is not income? (App 107-113) The
presenters at this meeting asserted that income had
been defined as a “gain or profit” which does not
arise when a party’s labor is exchanged for money. Of
course, this argument has been often presented to
federal appellate courts and rejected. See Wilcox v.
CIR, 848 F.2d 1007 (9th Cir. 1988). But, being wrong
about a legal argument is not criminal, and it certainly
applies to Counts 2 and 3 § 7203 charges for the
“income” alleged in 2012 and 2013.
Appellant believes that the denial of reading or
viewing previously admitted Exhibit 28 alone should
be enough for this Court to see that the exclusion of
this evidence deprived Defendant of a meaningful
opportunity to present a complete defense, in violation

12

of the Defendants Fifth and Sixth Amendments, and
requires the conviction on counts 2 and 3 be vacated.
When appellants lawyer would not respond to
appellants calls and emails post trial, and defendant
knew there was a 14-day window to put in a post trial
motion, the appellant did so himself. The Prosecution
responded to it, but almost two months later the Court
reasoned:
“this Court need not determine the validity
of Schlosser’s present motion to arrest judg­
ment because his motion was filed pro se
although he is currently represented by
counsel.” (App 10-ll);
“Furthermore, the Court orders the Defendant
to cease and desist from filing any further
pro se motions, as he is represented by
counsel.” (App 16)
Is this a violation and contrary to the inalienable
Rights appellant has, and the rights secured to him
from his state Pennsylvania Constitution?
§ 9. Rights of accused in criminal prosecutions.
In all criminal prosecutions the accused hath
a right to be heard by himself and his counsel.
to demand the nature and cause of the accu­
sation against him, to be confronted with
the witnesses against him, to have compul­
sory process for obtaining witnesses in his
favor.
At sentencing the District Court in sentencing
was mistaken when it stated that: “Furthermore you
had the opportunity to settle this in 2007 when vour

13
cases were heard bv the Tax Court and the Court of
Appeals but you chose not to do that. They told you
at that time that your arguments were frivolous.”
(App 1384-1385) The “case” was never heard by the
tax court, the liens still exist.
B.

Factual Background and Proceedings in the United
States Court of Appeals for the Third Circuit

1. On February 12, 2018, the Court of Appeals
appointed the Federal Counsel to represent jailed
Appellant on appeal. The matter proceeded to briefing
and decision. Appellant challenged his conviction and
sentence on a three-count indictment charging one
felony count for obstruction of tax law enforcement,
in violation of 26 U.S.C. § 7212(a) (Count One), and
two misdemeanor counts for willful failure to file
returns, in violation of 26 U.S.C. § 7203 (Counts Two
and Three). Appellant raised four issues: (l) whether
the conviction on Count One must be vacated due to the
government’s failure to prove obstruction of a particular
administrative pending, as required by the intervening
decision in Marinello v. United States, 138 S. Ct. 1101
(2018); (2) whether the conviction must be vacated on
all counts due to the district court’s exclusion of legal
materials and evidence on which Appellant testified
he relied in coming to a good faith belief; (3) whether
the finding of tax loss relied upon in calculating the
Sentencing Guidelines range and imposing sentence
was supported by substantial evidence; and (4) whether
the written judgment improperly provides for
restitution as a freestanding penalty due immediately.
2. In the appellants reply brief filed 10/16/18 it
raised the issues of the governments blatant prejudice
against defendants religious beliefs.

14

3. By judgment entered January 30, 2019, with
accompanying non-precedential opinion, a panel of
The Third Circuit Court of Appeals vacated conviction
on Count One in light of Marinello but affirmed
conviction on Counts Two and Three, holding the
district court not to have erred in excluding from
evidence the legal materials on which Appellant testi­
fied he relied. In light of the vacatur of conviction on
the sole felony count, the Court remanded for resen­
tencing and correction of the restitution award.
4. On February 8, 2019 appeals counsel promptly
advised Appellant of the Court’s opinion and judgment
and Appellant politely advised counsel he wished to
proceed pro se.
5. On May 6th, 2019 Appellant filed Appellants
Petition for Panel Rehearing and Rehearing en banc,
and Appellant’s Supplemental Index. On May 10th, the
Appeals Court Granted the Motion for the Supple­
mental Index.
6. On May 29th the Appeals Court issued certified
judgment in lieu of a formal mandate and remanded
the case back to the United States District Court for
the Eastern District of Pennsylvania, denying the
rehearing.
7. On July 29th 2019 Appellant sent an unopposed
motion to the lower court for a continuance for re­
sentencing until the Supreme Court rules on the
petition for certiorari, the Court graciously granted
extensions, currently re-sentencing till December 16th,
2019.
8. On August 6th, 2019 Appellant filed a timely
application for extension of time to file petition for

15
writ of certiorari to this Court over a decision from the
United States Court of Appeals for the Third Circuit,
which was granted, and extended till October 18th.
C.

Proceedings in the United States Court of Appeals
for the Third Circuit

Some of the missing exhibits quoted previously and
more to come in the record are especially relevant to
the § 7203 charges of Counts 2 & 3, contrary to how
the Appellate Court adopting the lower courts language
that allowing the defendants evidence would have
just been “piling on”. Opinion Pg. 4 “We discern no
abuse of discretion. The District Court allowed Schlosser to testify comprehensively about the Thaver
seminar. The admission of seminar materials, there­
fore. would have been piling on. The Opinion also
stated: “Nor were the excluded materials from the
Thaver seminar relevant to any of Schlosser’s other
reasons for thinking he was free from federal taxation.”
Throughout the USDC proceeding Prosecution was
objecting that most the Defense materials were inad­
missible, actually Prosecutor Miller seemed twitterpated on “hearsay”, (.E.g., App. 689, 735, 781,763,746,
853).
Oxford English Dictionary defines twitterpated,
adj. Origin: Formed within English, by compounding.
Etymons: twitter n.3. pated adi. 1. love-struck, besot­
ted; infatuated, obsessed. Also: excited, thrilled.
Appeals attorney Donoghue had argued marvel­
ously but the response was mute; (Appeal pg.45-46) “As
to the exhibits that did have these features, the court
barred Mr. Schlosser from introducing any of them.

16
In doing so, the district court initially relied on
the rule against hearsay. (App. 689, 723). This was
error because the defense did not offer the documents
for the truth of their content, but rather to demon­
strate that Mr. Schlosser adopted his beliefs after
hearing them espoused by a man holding himself out
as an attorney who supplied what appear to be legal
authorities. See Fed. R. Evid. 801(c)(2) (defining
hearsay as statement that “a party offers in evidence
to prove the truth of the matter asserted in the
statement”). The district court later recognized that
the rule against hearsay did not prohibit the materials’
introduction: in its opinion denying Mr. Schlosser’s
motion for a new trial, the court states instead that
the materials were excluded as “duplicative.” (App.
13-14). Contrary to this view, permitting Mr. Schlosser
to testify concerning the beliefs he formed after
attending the Thayer seminars was not the same thing
as permitting him to show the jury legal materials he
understood to support those beliefs. The documents
stood to corroborate his testimony in a way that no
unadorned profession of sincerity could.
Otherwise, the district court stated that permitting
introduction of the materials would have impeded
“efficiency.” (App.XX). If that is so, the proper course
would have been to limit the defense presentation,
not to exclude the evidence altogether. Indeed, limi­
tation was the course originally urged by the govern­
ment in briefing on a motion in limine. At that junc­
ture, the government acknowledged that Mr. Schlosser
must be permitted to identify legal authorities as well
as “third party materials” on which he relied in
forming his stated beliefs. (App. 59). It urged that
Mr. Schlosser be limited to reading excerpts without

17
admission of the documents themselves. (App. 59-60).
In the end, however, Mr. Schlosser was not even per­
mitted that much. Instead, at trial, the prosecutor
changed course and erroneously urged that the mate­
rials were inadmissible hearsay. (E.gApp. 689, 735,
853). As a result, the defense was prevented altogether
from showing the jury evidence that Mr. Schlosser
had encountered an attorney who produced authorities
appearing to support the views he espoused.”

REASONS FOR GRANTING THE PETITION
This Court’s review is warranted to determine
the scone of allowing evidence in mens rea cases.
such as § 7212(a) and § 7203. There is an acknowledged
split, among many Circuit’s interpretation or the
degree of “broad discretion” given to judges that
affected this appellant, (Govt. Reply Br. Pg. 33) that
the stand against the Third Circuit’s decision at
present. This case is an ideal vehicle to resolve that
split because the issue is squarely presented in many
of the following cases, and is dispositive of Petitioner’s
convictions under § 7203.
The question is also one of great significance, as
everyone is subject to the tax code, and § 7203 is
frequently used by the IRS in indictments, so this
Court should decide whether Congress intended that
willfulness, defined therein to upend the structure of
the Code’s criminal tax provisions and bestow such
broad powers on prosecutors and judges “broad
discretion” to deny exculpatory evidence at trial.

18
This Court’s review is necessary because other
circuits tend to allow more evidence in mens rea cases
than the Eastern District of PA and the 3rd Circuit
and Appellate court did here. Below, the 11th, 3rd,
1st, 2nd and 9th Circuits speak to this and similar
issues:
Moreover, exclusion of evidence regarding a
defendant’s intent when that is the primary issue for
resolution by the jury results in reversal. See United
States v. Lankford, 955 F.2d 1545, 150-51 (llth Cir.
1992) (“It is thus highly probative for the defense to
show that the defendant’s belief—whether or not
mistaken—was reasonable; evidence of a beliefs reason­
ableness tends to negate a finding of willfulness and to
support a finding that the defendant’s belief was held
in good faith.”). Where “the excluded testimony [is]
related to the determinative issue of intent, we cannot
say that the error was harmless.” United States v.
GaskelJ, 985 F.2d 1056, 1063 (llth Cir. 1993); and
United States v. Versaint, 849 F.2d 827, 832 (3d Cir.
1988) (error is not harmless where improperly excluded
evidence went to the heart of the defense).
In this case, appellant was prepared to testify at
trial about what various presenters told him at the
several meetings he attended, and he also sought to
offer the attached exhibits and explain the beliefs he
acquired as a result of reading and studying them.
But, appellant was denied both the opportunity to
tell the jury what others told him and was further
prevented from showing the jury some of the relevant
documents he relied upon. An asserted belief without
a demonstrable foundation is easy for a jury to reject.

19
See Pettijohn v. Hall\ 599 F.2d 476, 480 (1st Cir.
1979) (“In the context of a criminal trial, the sixth
amendment severely restricts a trial judge’s discretion
to reject such relevant evidence. Exclusion of relevant
exculpatory evidence infringes upon the fundamental
right of an accused to present witnesses in his own
defense.”); Rosario v. Kuhlman, 839 F.2d 918, 924
(2nd Cir. 1988) (“The right to present a defense is one
of the ‘minimum essentials of a fair trial.’ * * * It is a
right which derives not only from the general fairness
requirements of the due process clause of the fourteenth
amendment but also, and more directly, from the
compulsory process clause of the sixth amendment. It
is a right which comprehends more than the right to
present the direct testimony of live witnesses, and
includes the right under certain circumstances, to
place before the jury secondary forms of evidence,
such as hearsay or, as here, prior testimony.”); and
DePetris v. Kuykendall, 239 F.3d 1057, 1063 (9th Cir.
2001) (“The trial court precluded petitioner from
testifying fully about her state of mind and from
presenting evidence that would have corroborated her
testimony. Because this evidence was critical to her
ability to defend against the charge, we hold that the
exclusion of this evidence violated petitioner’s clearly
established constitutional right to due process of
law—the right to present a valid defense.”).
The 8th and 9th Circuits also agree; Excluding
evidence offered at trial by the defense can result in
reversal. See United States v. Silkman, 156 F.3d 833,
836 (8th Cir. 1998). While the Silkman case dealt
with the exclusion of financial records in a tax trial,
other courts have considered the issue of the exclusion
of evidence like that at issue here. Relevant to the

20

§ 7302 Charges in the instant case, in United States
v. Powell, 955 F.2d 1206, 1214 (9th Cir. 1991), which
reversed a tax conviction on the grounds that evidence
offered by a defendant regarding his intent was
erroneously excluded, that court stated:
“The Supreme Court in Cheek held that Torbidding the jury to consider evidence that
might negate willfulness would raise a serious
question under the Sixth Amendment’s jury
trial provision.’ Cheek, 111 S.Ct. at 611.
Although a district court may exclude evi­
dence of what the law is or should be, see
United States v. Poschwatta, 829 F.2d 1477,
1483 (9th Cir. 1987), cert, denied, 484 U.S.
1064, 108 S.Ct. 1024, 98 L.Ed.2d 989 (1988),
it ordinarily cannot exclude evidence rele­
vant to the jury’s determination of what a
defendant thought the law was in § 7203
cases because willfulness is an element of
the offense. In § 7203 prosecutions, statutes
or case law upon which the defendant claims
to have actually relied are admissible to dis­
prove that element if the defendant lays a
proper foundation which demonstrates such
reliance. See United States v. Harris, 942,
F.2d 1125, 1132 n. 6 (7th Cir. 1991); United
States v. Willie, 941 F.2d 1384, 1391-99
(10th Cir. 1991).... In addition, the court
may instruct the jury that the legal material
admitted at trial is relevant only to the
defendant’s state of mind and not to the
requirements of the law, and may give other
proper cautionary and limiting instructions
as well.” (emphasis added).

21

Defendant believes these exhibits should not have
been excluded according to the Prosecutors own defi­
nition of hearsay. (App 54 & 56) As a result the
Defense was prevented altogether from showing the
jury evidence that the Defendant did not have “mens
rea,” and why he had adopted the views he espoused
at that time. If these exhibits were entered, a rational
trier of fact could have concluded differently. ‘56 was
a good year, especially for the 3rd Circuit on hearsay;
In Nuttall v. Reading Company, 235 F.2d 546,
551 (3rd Cir. 1956) (“One of the exceptions to the rule
excluding hearsay is that a man’s declarations as to
his state of mind may be used to establish that state
of mind and, to some degree, such other things as
proof of a state of mind tends to establish.”)
In United States v. Branham, 97 F.3d 835, 851
(6th Cir. 1996) (“‘Hearsay’ is defined as ‘a statement,
other than one made by the declarant while testifying
at the trial or hearing, offered in evidence to prove
the truth of the matter asserted.’ Fed. R. Evid. 801(c).
However, ‘if the significance of a statement lies solely
in the fact that it was made.’ rather than in the
veracity of the out-of-court declarant’s assertion, the
statement is not hearsay because it is not offered to
prove the truth of the matter asserted.’”);
Shockingly, in a side bar discussion (App.23a26a) Defense attorney Becraft finally got upset by the
prosecution and Courts denial of almost all of the
evidence defendant attempted to enter, and Prosecutor
Floyd Miller tried to reassure him and said “it’s
Theater, it’s Theater”. App.26a. This is inexcusable,
as a prosecutors duty is outlined in Berger v. United
States, 295 U.S. 78 (1935) P. 295 U.S. 88 states:

22

“The United States Attorney is the representative
not of an ordinary party to a controversy, but of a
sovereignty whose obligation to govern impartially is
as compelling as its obligation to govern at all, and
whose interest, therefore, in a criminal prosecution is
not that it shall win a case, but that justice shall be
done. . . . But, while he may strike hard blows, he is
not at liberty to strike foul ones. It is as much his
duty to refrain from improper methods calculated to
produce a wrongful conviction as it is to use every
legitimate means to bring about a just one.”
For any Federal Government’s attorney to deny
critical evidence, and joke “it’s Theater, it’s Theater ... ”
Prosecutor Miller here is striking foul blows. The
Appellate Court was mute, does this Court of last
resort encourage this behavior from the DOJ? This
gives the DOJ/IRS the unrestrained ability to crush
any Citizen at will. . . Maybe to prosecutors, with
unlimited budgets & resources it’s funny but never
before having a criminal charge and indicted at 61,
(with a flimsy twisted theory of prosecution which
kept changing), the court and sentencing process and
media can (and in this case did) destroy people, their
name, their families, financially and their future.
Furthermore, jail is a very dangerous place for a now
63-year-old “white guy”, who was often called an “old
head”.
Shon Hop wood, ex-prisoner, and now Associate
Professor ofLaw, Georgetown University Law Center
“IMPROVING FEDERAL SENTENCING”; describes
his experience on P. 2-3. The Total Punishment of a
Long Sentence Prison Sentence

23

“Very few would condone, as part of an official
government-enforced sentence, throwing prisoners into
a tank filled with large hungry sharks. Yet when people
are sentenced to long terms in an American prison,
that is essentially what occurs. When people go to
prison, they are be exposed to a much greater risk of
serious bodily injury and death. They are also more
likely to die from suicide, delayed medical care, or a
lack of medical care altogether.
A sentence to federal prison includes a number
of unofficial punishments that are not included as a
part of the government-imposed sanction. Just a few
weeks after I was sentenced, a large man who was HIV­
positive told another prisoner in the federal holding
facility in Oklahoma City that he planned to rape me
the next morning. At the time, I weighed only 180
pounds and I couldn’t have bench pressed my own
weight if my life depended on it. Several prisoners
warned me what was coming; apparently this was not
the first time this person had assaulted someone there
and the guards had done nothing. I waited for the
cell door to open in the morning, clutching a homemade
knife. I waited all night knowing that, even if I was
successful and warded off the attack, I’d likely receive
an additional sentence of imprisonment for stabbing
him. That day could have destroyed me. This was just
one of thousands of panic-inducing moments that was
not intended to be part of my official sentence but
was still real, all the same. Assault, petty jealousy
and physical threats from guards, food not meant for
an animal to eat, denials of medical care for a serious
back injury from which I have not had a single painfree day in thirteen years, and solitary confinement

24
were all part of the punishment, but not part of the
sentence.
Prison is not just harsh. It cripples people. Even
if prisoners make it out of prison alive, their
mortality rate is higher than the general public.”
In summary the denial of evidence was too
voluminous to overlook. The appellant had been a man
who had been taught, lived and deeply believed in
some wrong legal principals for over 10 years, but
throughout these last 12 grueling years since the Cl
agents arrived on his doorstep informing him that he
was under criminal investigation, under much pressure
has maintained that his actions were not criminal.
The 11th Circuit United States v. Juan, 776 F.2d 256,
258 (11th Cir. 1985).
“Appellant’s contention of innocent intent in this
case would strain the credulity of reasonable jurors
unless it could be made to appear that, as incredulous
as it might seem, the belief may have rested upon a
real and genuine basis. Evidence of the basis is mate­
rial, whether or not it might ultimately be persua­
sive. Clearly, the mere fact that appellant had, in the
past, engaged in the activity he seeks to prove does
not insulate him from criminal responsibility for
unlawful acts thereafter. His claim of innocent intent
may well remain unbelievable even though supported
by his historical evidence. Yet, the past events tend
to make more plausible that which, absent proof of
those events, would be implausible. Appellant should
be allowed, subject to the discussion below, to establish
the premise for his claim.”
QUESTION 2—When the Appellate Court instruction
is vague regarding the District Court improperly

25

ordering restitution as a penalty due immediately
absence of statutory authority, and it damaged the
appellant, what can be done to correct it?
This issue was preserved when the defense objected
to imposing restitution due immediately as a penalty.
Quoting Attorney Becraft in Post trial Motion (App
1274-1276)
“In paragraphs 36, 37, 38, 107 and 108, the final
PSR asserts that restitution in the amount of
$553,739 is due. Objection is made to these paragraphs
because restitution can only be ordered to be paid
during the period of supervised release
While
§ 5D1.3 provides for restitution for Criminal Code
offenses, it does not provide for restitution for tax
offenses . . . .Historically, restitution for tax crimes
has not been allowed.” (emphasis added)
Regardless of Becraft instructing the Court, the
District Court made restitution due immediately, and
the prosecution did not correct them or object, but
encouraged it. In the appellants Appeal Brief on Page
53, appellant’s Appeals lawyer Donoghue stated;
“sentencing memoranda concurred in the view that
restitution may be ordered only as a condition of
probation or supervised release, with the government
arguing the court should impose such a condition and
the defense contending it should not. (App. 1274,
1280, 1292, 1297-1298). In pronouncing sentence, the
court indicated that it was ordering restitution as a
special condition of supervised release “as per the
Government’s arguments.” (App. 1386). Thereafter,
however, the court stated that restitution was “due
immediately,” i.e., before the commencement of super­
vised release. (App. 1387). The court also recommended

26

that Mr. Schlosser make “a minimum payment of $25
per quarter towards restitution” during confinement.
(App. 1387). The judgment in turn states the amount
of restitution first under the heading “Special Condi­
tions of Supervised Release,” and then again under
the heading “Criminal Monetary Penalties,” with a
“Schedule of Payments” memorializing the quarterly
obligation during confinement. (App. 5-7).
The appellant’s home of 20 years was sold while
he was in prison, and due to “the fake news” of the
indictment being published in the newspapers locally
which created a “dark cloud” of IRS involvement
hanging over the property, which sold for much less
than it is worth. The difference of what it did sell for
and what it is worth could have been used to pay
towards past taxes owed, and it left the appellant
literally homeless. The Appeals Court was silent on
this issue, and to ignore this and not rectify this is
further damaging to the appellant.
To further exacerbate the issue, new evidence
that the Appeals Court accepted but ignored; On
05/02/2018 (while the defendant was incarcerated),
the USDOJ sent an Administrative Offset Notice to
collect a debt, to appellants home address, knowing
that he was in prison and that the case/restitution
was under Appeal. (App.62a) It charged him the bill
for the remaining restitution, $ 408,741.36 and
applied it to SSN XXX-XX-9979 with 60 days notice to
comply. Appellant was not aware of this letter and
the 60 days expired prior to appellant’s release, so
does that violate the Treasury Offset Program Rules,
the Debt Collection Act of 1982, as amended by the
Debt Collection Improvement Act of 1996 and the

27

Infernal Revenue Code? That violated appellants
constitutional right of re-dress.
Thankfully, the Appeals Court and Prosecution
have conceded that the written judgment improperly
provided for restitution as a freestanding penalty
was incorrect, and ordered it to be re-calculated, and
Count 1, 7212(a) was dropped. Yet the Appellant is
concerned that in the event that this Court decides
not to drop the 7203 charges, if Counts 2 and 3, go
back for resentencing, leaving the restitution instruc­
tions were vague and now up to the Court that leaned
heavily on the Prosecutions arguments at almost every
opportunity is at best unsettling. Therefore the appel­
lant is asking this Court to clarify that restitution and
re-sentencing must be limited to 2012 and 2013 only.
Marinello states:
“neither can we rely on prosecutorial discre­
tion to narrow the statue’s scope . . . doing
so risks allowing policeman prosecutors
injuries to pursue their personal predilec­
tions” Smith v. Goguen, 415 U.S. 566, 575,
94 S.Ct. 1242, 39 L.Ed.2d 605 (1974).
Thankfully trial Prosecutor Floyd Miller stated
to the jury and court; “Now he wasn’t charged with
filing—with failure to file for 2014, because that’s
included in Count 1”. The appellant is assuming all
of the other years were too. (App 997)
Question 3—Should the DOJ lawfully absolve the
IRS, prosecutors, attorneys or judges who seemingly
have no accountability, and flagrantly twist, distort
and mock appellant’s religious beliefs at trial, then

28

weaponized those miss-stated beliefs in the media,
leaving the slandered appellant indefensible?
“Think of the press as a great keyboard on
which the government can play.”
Joseph Goebbels
It’s a historical fact that under the Obama admin­
istration there was prejudice displayed by the IRS,
Loretta Lynch etc. against the Tea Party, Christians
and other conservative groups, for which they still
remain inculpable. In the instant case the Grand
Jury started simultaneously in 2009, under Obama.
The prosecutors repeatedly attacked the defend­
ant’s religious beliefs, and denied the exhibits that
could have explained them. This concern was raised
in the Defendants Reply Brief (App 1038-9) the Panel
was silent on this important issue regarding 1st
Amendment Rights upon request for re-hearing. (App
917). The Defendant would like this courts judgment to
determine if repeated prosecutorial slander, prejudice
and ill-will of his religious beliefs could have affected
the outcome of the case. (App 1009-1010; 890; 909;
917-18; 872).
This Courts intervention is necessary since the
Appeals Panel was silent on Appellants questions 2
and 3, to determine prosecutorial abuse of appellant’s
religious beliefs and IRS and possible lawyer-prose­
cutorial malfeasance.
Quoting Donoghue; “Mr. Schlosser also testified
to his belief that his Social Security number nonetheless
is invalid because it issued on his own application
while still a minor. (App. 779, 852). The government
conflates these two points, however, when it parses

29

Mr. Schlosser’s testimony to have been that “from
2009 forward,” his concern about the Social Security
number’s issuance was his reason for not filing tax
returns. See Gov’t Br. 25, 37.
Finally, the government draws attention to Mr.
Schlosser’s religious objection to mandatory social
insurance programs and his citation of biblical text
in the course of testifying. (App. 763-765, 870). This
focus is misplaced, as the defense did not put forward
Mr. Schlosser’s faith as the basis for his belief that,
as a matter of law, he was not required to file returns.
Rather, the defense was that Mr. Schlosser understood
the notice-and-default procedure to have relieved
him of federal tax obligations. (See App. 1020-1024,
1030-1032 (closing argument)).”
Exclusion of this evidence and complete silence
by the Appeals Panel on this issue deprives Appellant
of a meaningful opportunity to present a complete
defense, in violation of the Fifth and Sixth Amend­
ments, and requires the conviction be vacated.”
At trial and regurgitated in the Governments Reply
Brief, pg. pg. 37. “Moreover, Schlosser said that he
had religious objections to the use of Social Security
numbers, which were grounded on the Bible, and
offered no evidentiary support for his belief that his
Social Security number was contractually invalid
because he obtained it when he was a minor.”
(emphasis added)
Prosecution claimed “no evidentiary support” which
is not true, see (App 763-784, 1374, 1376). Prosecution
time and again objected exhibits out of evidence, or
for some reason they were not entered. Exhibit 10 is
the Defendants letter to his bank, was demanding a

30

SSN be associated with his families accounts. This
exhibit dated 4/20/2006, describes his religious beliefs
and is relevant for Counts 2 & 3, as checks from monies
he earned in the years 2012-13 were deposited into a
non-interest bearing account and the 1099’s for those
years had no SSN on them. The Defendant wrote;
“I have held a religious objection to Social
Security for many years ... I have a letter
from Social Security that says “a social
security number is not required to live or
work in the United States ... I object to any
government benefit that would replace my
God-Given mandate or responsibility. I believe
that putting my future “security” and old
age benefits in the hands of men is contrary
to the principals in Jeremiah 17:5 & 6, II
Chronicles 16:7 and many new testament
scriptures. 1 Cor. 7:21-23 encourages believers
to stay free from enslavement when they
can,. . . ”.
This exhibit also included a copy of a Certified
response from SSA to appellant for his third expedited
FOIA request (which too years to get an answer),
showing when appellant’s SS-5 form was applied for
that he was a minor, and no parental affidavits were
produced. This would have been visual evidence to
jurors of why the appellant believed that his SSN
was illegal, and that it was not just his fairytale
“belief’, but it was based on actual evidence.
Exhibit 28 was allowed into evidence, stated some
of Schlosser’s religious objections but again, the
judge but denied it’s reading to the jury:

31
“the whole Social Security System is based
on fraud and is a Ponzi scheme”, “trusting
in man”. Proverbs 6 and Jeremiah (as well
as other Scriptures) “rebuke believers for
being involved in this ...”
Supplemental Appendix Exhibits admitted by the
Panel also showed:
Ex lA-Schlosser’s exhibit list proves that not all
of the exhibits were about the Thayer Seminarscontrary to the Panels ruling;
Ex. 8A mentioned the Religious Freedom Resto­
ration Act (RFRA), ‘least restrictive means test”. This
admission is relevant in counts 2 and 3 because it
would have shown the sincerity and reasonableness of
Defendants actions were more based on not using a
SSN while prosecutors proffered the acts were for tax
evasion. The April 2004 correspondence between
Defendant’s lawyer and PENDOT official to make an
exception to the now mandatory SSN usage to get a
PA license, (which was not mandatory earlier). The
10/20/2004 response letter from SSA FOIA backing up
court testimony of why appellant believed the SSN
given, as a child was illegal. (App. 664, 779, 882-883).
Annie White, Associate Commissioner Office of Public
Inquiries quoted:
“If a SSN is requested for someone who is
under age 18 or age 18 or older and physically
or mentally incapable of signing the applica­
tion, the parent is the proper applicant.”
There were no parental affidavits produced by
SSA. Appellant testified that he does continue to
maintain a religious and conscientious objection to

32

Social Security as a forced social insurance program,
like Obamacare, noting that some of his Amish
neighbors and tens of thousands of other Lancaster
County residents have been able to obtain exemptions.
(App. 763-766, 773-775, 783-784, 862-863).
Exhibits 21 and 22 are parts of exhibits that
were objectionably withheld by Larry Becraft. defend­
ant’s own trial lawyer Affidavite of JKS.
Ex 21-A-4. (App.42a) The record reflects (App 827831; App 938-939) why the Defendant was actually
denied that opportunity to be heard in the 2007 tax
court. The tax court case was only concerned over “an
expired” lien on a 1994 tax bill, for about $1,000 not
any other tax years as the prosecution. District Court
and Panel erroneously implied. In the full Ex 21A, it
appears that in 2009 the government knew the hen had
expired, and they had told appellant that on 7/3/2006.
IRS Criminal Investigator Michael Castellano inter­
viewing with B. Williams-Downing Revenue Officer
Advisor, and the Lien Technical Specialist L. Biting
Supervisory tax examining Assist all knew it had
expired, yet the prosecution hotly pursued this topic
in court.
“Based on her review of Schlosser’s letter
and TXMOD, her employee Ms. Harth, fol­
lowed proper procedures. Ms. Harth advised
Schlosser that the levy was released on
07/03/2006”.
Ex 21 A-Wl-34 and Wl-35 note a “Letter from
Schlosser dated January 21, 2010,
“Written protest to letter CP-501 regarding
civil penalty imposed by tax court for 199412.

33

Schlosser asserts statute of limitations
expired. Also states that he has religious
objection to using a SSN and has not done
so since 1994”
Had the jury been able to see these exhibits they
would have had a better understanding of appellants
sincerity of belief of not using a SSN, and why he
believed the Tax court lien was a non-issue because
even the IRS themselves said it was expired and
uncollectable, and they had told the defendant verbally.
but never sent proof. This evidence alone could have
changed the trials outcome.
Is this Prosecutorial misconduct as they knew,
or should have known, the ‘97 lien was expired and
released, yet vigorously beat their big club on the Tax
Court drum, deafening the jury with a false narrative
(App-441).
“The most brilliant propagandist technique
will yield no success unless one fundamental
principle is borne in mind constantly—it
must confine itself to a few points and
repeat them over and over.”—Joseph Goebbels
Defendant wondered if even the Tax Court’s and
prosecutor knew that the 1997 lien was expired, so
she requested summary dismissal and testified to such
(App. 938-939) Without this concrete evidence being
shown to the jury, defendants testimony appeared a
tin-hat conspiratorial argument.
Ex 22-A-l (App.45a) describes how before the
case even referred criminally the testimony of the VP
of a brokerage firm, that seasoned IRS Agent D.
Ramos is a law breaking bully;

34
“that Ms. Ramos was aggressive and may
have caused his front office employees to
provide information about their former client
[Appellant], which potentially should not have
been released without a legal summons.”
This appears to be a violation of Appellant’s
Fourth Amendment rights by a federal officer. Can
someone please re-legalize the Constitution?
Evidently withholding exculpatory evidence and
twisting the truth is common amongst some prosecu­
tors and lawyers Affidavit JKS. Sidney Powell Former
Federal Prosecutor and author of License to Lie”, on
December 17, 2018 wrote an opinion in The Daily
Caller
“Countless people, including a former federal
prosecutor, seem oblivious to one of the
greatest abuses, outrages, and tragedies of
our criminal justice system: innocent people
are forced to plead guilty every day. Indeed,
the Innocence Project alone has exonerated 31
people who spent a combined 150 years in
prison on guilty pleas. That is only the tip of
the proverbial iceberg. This horrific injus­
tice is solely attributable to the unchecked
power of prosecutors who now function as
prosecutor, judge, jury, and executioner.
They have unfettered discretion, no super­
vision. no limits, and most federal judges
defer to them at every turn.” . . . “Those who
have not endured a criminal prosecution, or
been close to someone who has, cannot begin
to imagine the toll it takes on everyone
involved—the entire family. The stress is

35

incomprehensible . . . Prosecutors send
innocent people to prison every day—whether
by guilty plea or wrongful conviction. Prose­
cutors withhold evidence of innocence, they
destroy evidence, and they have absolute
immunity. This must change now.”
In the Defendants Reply Brief Pg. iii, it references
post sentencing newspaper articles Associated Press,
“Man convicted of not filing taxes over ‘mark of the
beast,’” Morning Call, Mar. 8, 2017, United States
Department of Justice, Press Release; Jury Convicts
Lancaster Man of Tax Fraud, Mar. 7, 2017 where Acting
United States Attorney Louis Lappen, quoted:
“Testifying in his own defense, Schlosser told
the jury that he refused to file tax returns
because he concluded that the use of a social
security number represented the “mark of
the beast alluding to a passage in the Bible”.
That statement is untrue; it’s not in the record
stated nor what the defendant said or believes. That’s
not why appellant didn’t file (App 872; 918) but this
disturbing theology is slander and prosecutorial
malfeasance, and was published in the media; the bell
can’t be un-rung, embarrassing the appellant, his
family and church family.
On Monday morning, the final day of trial, right
after the “Curious George jurors” spent the weekend
at home (probably reading newspapers), the District
Court gave Jury Instructions that a newspaper report
is evidence! (App 1051) “certain facts like a newspaper
report or a courts opinion.” On Apr. 26, 2019 www.
nbcphiladelphia.com/news published a digital news-

36

paper article; “Weinstein’s lawyers say news coverage
could taint the jury pool”:
“Both the prosecution and defense asked that the
hearing be held behind closed doors because it focuses
on sensitive matters . . .
All criminal cases should be treated as such.
This Supreme Court, the defendant’s Court of Last
Resort MUST stem the growing tide of IRS Agency,
prosecutorial or judicial malfeasance. If the prosecution
can’t force a defendant who is un-willing to lie and
take a “plea bargain” (i.e. state that the defendant
had criminal intent when they did not), then with
their unlimited resources, can easily destroy defendants
lives, create unwanted lawyer debt, publish false
narratives and weaponized them in the media, before,
during and after trial, and withhold evidence from
the jury.
Regarding prosecutorial misconduct, Shon Hopwood’s ideas in the UMKX Law Review [Vol. 87:1,
Pg’s 79-96 are relevant. He wrote:
“To take one example, there has recently been
a national movement among criminal justice
reformers to target prosecutors. Reformers
are currently studying the ways to hold
punitive prosecutors accountable for our
country’s mass incarceration of its citizens.
But unlike many state and local prosecutors,
federal prosecutors cannot be voted out of
office. Thus, the only real check on bad DOJ
policymaking officials comes from the career
consequences that person experiences after
leaving the DOJ. Holding these officials

37

accountable through such consequences is
appropriate ...”

CONCLUSION
Appellant requests that this court dismiss all of
the charges of 7203 on Counts 2 and 3 and any
existing or farther investigations against the appellant,
return all of his evidence, clear his name and address
a solution for damages that he has incurred, and further
investigate all the unlawful government actors and
issues raised with the full power of the United States
governments ability, like attorney Becraft’s phone
call, who made the call, the Prosecutor, DOJ, the
Court? America needs to know the truth to re-gain
credibility of our Criminal Justice System, which has
3 words, otherwise it voids the second word, making
it a Criminal System.
In the event this court decides not to drop Counts
2 and 3, then please specify to the USDC that maximum
authorized restitution is the loss from 2012 and 2013,
and all future orders comply with the standard statute
of limitations, (App 46-47) and please suggest an
alternative sentence to jail so that appellant can
work and pay back his debt to society. Further, the
appellant respectfully requests this court for clarity
to be given to the USDC and Government regarding
restitution or filing for tax years beyond the standard
statute of limitations, as District Judge in sentencing
left vague instructions to “fully cooperate with the
IRS by filing all delinquent or amended returns.”

38

Does that mean they can go back 25 years, or into a
college yearbook?
Therefore the Petitioner respectfully requests that
this Court of his last resort grant review.
Respectfully submitted,
James Kerr Schlosser
Petitioner Pro Se
1828 Krystle Drive
Lancaster, PA 17602
(717) 371-8563
October 18,2019

